Nos. 19-368 and 19-369
INTHE

~upreme <!Court of tbe Wniteb ~tates
FORD MOTOR COMPANY,
V.

Petitioner,

MONTANA EIGHTH JUDICIAL DISTRICT COURT,
FORD MOTOR COMPANY,
V.
ADAM BANDEMER,

et al., Respondents.

Petitioner,

Respondent.

On Petitions for Writs of Certiorari
to the Supreme Court of Montana
and the Supreme Court of Minnesota
CERTIFICATE OF COMPLIANCE

I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.l(h), I certify this 21st day of October 2019, that the Brief for the Alliance of
Automobile Manufacturers as Amicus Curiae in Support of Petitioner contains

S, q 15 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.

aime ~ntos
Goodwin Procter LLP
901 New York Ave., NW
Washington, DC 20001
jsantos@goodwinlaw.com
(202) 346-4000
Executed on October 21, 2019

Counsel for Amicus Curiae

